REVIEW OF DEPARTMENT OF JUSTICE 

   AIRFARES AND BOOKING FEES 

OCTOBER   2012 THROUGH              JUNE   2013 


          u.s.
             Department of Justice
      Office of the Inspector General

                  Report 13-39 

                 September 2013 

                REVIEW OF DEPARTMENT OF JUSTICE 

                   AIRFARES AND BOOKING FEES 

                OCTOBER 2012 THROUGH JUNE 2013 


                            EXECUTIVE SUMMARY


       Since fiscal year (FY) 2011, Department of Justice (DOJ) employees
have booked an average of over 167,000 airline tickets each fiscal year at an
estimated annual cost of over $112 million. DOJ employees are allowed to
book travel in two ways: (1) online by using GetThere, a booking engine
that provides real-time information on flight availability and airfares; or
(2) by contacting a contractor travel agent. In addition to the cost of the
airfare, booking with an agent costs DOJ $31.49, while booking online using
GetThere costs $6.49, a difference of $25.

       Concerned about excessive travel contractor costs, the U.S. Senate
Committee on Appropriations issued a report in April 2012 directing
Inspectors General of agencies funded by the Departments of Commerce
and Justice, science, and related agencies appropriations bill for FY 2013,
which included the DOJ Office of the Inspector General (OIG), to examine
these costs.1 The Committee report specifically commended the Drug
Enforcement Administration (DEA) for “aggressively pursu[ing] savings in
this area.”

      In connection with our review, we discussed the evolution of DOJ
travel policies with the Justice Management Division (JMD), which
establishes DOJ-wide travel policies and contractor travel agency
requirements, and we discussed and reviewed travel policies and procedures
with officials at the following seven components: (1) DEA; (2) Federal
Bureau of Investigation; (3) Bureau of Alcohol, Tobacco, Firearms and
Explosives; (4) U.S. Marshals Service; (5) Federal Bureau of Prisons;
(6) Executive Office for U.S. Attorneys; and (7) Criminal Division. These
components represented more than 80 percent of the total number of tickets
purchased by the DOJ for the first 9 months of FY 2013. Unless otherwise
noted, the scope of our review was from October 2012 through June 2013.

     We found that JMD previously issued guidance aimed at reducing the
amount spent both on airline tickets and booking fees. In December 2010
and May 2011, JMD issued memoranda encouraging travelers to reserve or

      1
         Senate Rep. No. 112-158 (April 19, 2012). The report required the review to be
completed within 180 days of what became the applicable legislation’s enactment, which
occurred on March 27, 2013.
purchase the lowest-priced ticket available required to meet mission needs,
even if the tickets were not fully refundable. In August 2010, JMD requested
that all components develop an “aggressive outreach strategy” to maximize
the number of travel bookings employees placed online instead of booking
through a travel agent.

       At the time of our review, only one of the DOJ components we
reviewed, the DEA, had fully implemented an initiative that we believe has
significantly reduced employee airfares. In September 2011, the DEA began
aggressively enforcing a policy requiring that its employees purchase the
lowest-priced tickets available. The DEA reported to us that there was a
$6.5 million difference between the costs of fully refundable airfares and
lowest airfares available for all of its FY 2012 flights.2 In addition, we found
that two of the components we reviewed, the DEA and ATF, had taken
aggressive actions requiring that employees book travel online by only
reimbursing employees for the lower online booking fee of $6.49 unless the
employee could specifically justify why he or she needed travel agent
assistance to book travel.

       We found that JMD recently has taken additional steps in an attempt
to reduce the amount DOJ spends on airline tickets. In May 2013, before
the OIG initiated this review, JMD revised DOJ travel policies to require that
employees purchase or reserve the lowest airfare available that meets
mission requirements at the time they make travel arrangements. JMD
reports it is also drafting a bulletin for DOJ employees to help them
understand how to use GetThere to purchase lowest-priced tickets. We
found that, depending on how a component configures the online booking
engine, it can encourage or discourage travelers from selecting the lowest
airfare available. We believe JMD’s actions are important steps towards
realizing savings in employee travel costs. We further found that JMD has
taken steps to encourage DOJ employees to book travel online, resulting in
an increase in online booking from 44 percent for FY 2010 to 60 percent for
the first nine months of FY 2013. However, those figures still fall short of
JMD’s goal that 75 percent of airline tickets be booked online. We made
three recommendations to JMD to help DOJ reduce travel costs.


       2
           The DEA considers the difference in price between fully refundable airfares and
lowest airfares available as cost savings because it believes this figure captures the full
effect of the DEA-wide “change of behavior” as a result of enforcing this policy. DEA
officials told us that prior to the policy employees largely purchased only fully refundable
airfares. The DEA stated it reduces the amount of savings calculated to account for
cancellation or change fees that were actually incurred. Our review did not include an
assessment of the $6.5 million in reported savings.



                                               ii
                  REVIEW OF DEPARTMENT OF JUSTICE 

                     AIRFARES AND BOOKING FEES 

                  OCTOBER 2012 THROUGH JUNE 2013 


                                 TABLE OF CONTENTS



Introduction ....................................................................................... 1 


OIG Review Approach .......................................................................... 2 


Overview of the DOJ Official Travel Process............................................. 3 


Requirement to Select Lowest Airfare Available ....................................... 4 

     Improving Online Booking Engine Configurations ............................. 5 

     Ensuring Employees Select Lowest Airfare Available......................... 8 


Maximizing the Percentage of Online Bookings ...................................... 10 


Recommendations............................................................................. 12 


APPENDIX I: JUSTICE MANAGEMENT DIVISION’S

     RESPONSE TO THE DRAFT REPORT.............................................. 13 


APPENDIX II: DRUG ENFORCEMENT ADMINISTRATION’S 

     RESPONSE TO THE DRAFT REPORT.............................................. 15 


APPENDIX III: BUREAU OF ALCOHOL, TOBACCO, FIREARMS 

     AND EXPLOSIVES’ RESPONSE TO THE DRAFT REPORT ................... 17 


APPENDIX IV: OFFICE OF THE INSPECTOR GENERAL ANALYSIS 

     AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT.... 19

This page intentionally left blank.
	
                 REVIEW OF DEPARTMENT OF JUSTICE 

                    AIRFARES AND BOOKING FEES 

                 OCTOBER 2012 THROUGH JUNE 2013


 Introduction

        The Federal Travel Regulation requires federal employees to use their
 respective agency’s approved E-Gov Travel Service (ETS) to make travel
 arrangements.3 The Department of Justice’s (DOJ or Department) ETS
 vendor, CWTSatoTravel (CWT), provides employees with access to GetThere,
 which is an online booking engine that shows real-time information on flight
 availability and airfares. Employees may also make travel arrangements by
 directly contacting a CWT travel agent. Under the government-wide ETS
 contract, online bookings using GetThere costs the DOJ $6.49 each while
 agent-assisted bookings (either by phone or in person) costs $31.49 each, a
 difference of $25.

        Before FY 2010, some individual DOJ components began moving away
 from requiring that employees purchase fully refundable airline tickets to
 permitting the purchase of airfares subject to cancellation or change fees so
 long as the airfare purchased met mission needs. In July 2010, the Attorney
 General’s Advisory Council for Savings and Efficiencies (SAVE Council) was
 established to help implement cost-saving initiatives across DOJ. With
 regard to travel costs, the SAVE Council proposed that DOJ employees
 purchase the lowest, commercially available, non-refundable ticket on flights
 that meet mission needs, as opposed to purchasing only a fully refundable
 ticket that is available for federal employees on official travel. The SAVE
 Council also proposed that DOJ attempt to maximize the number of bookings
 employees placed online instead of those made directly with a travel agent.
 In December 2010 and May 2011, the Justice Management Division (JMD)
 issued memoranda that encouraged travelers to consider reserving or
 purchasing the lowest-priced ticket available.




        3
           41 C.F.R. §301-50.3 (2013). The U.S. General Services Administration (GSA)
established a government-wide ETS contract in 2003 in an effort to reduce travel costs and
improve travel planning efficiency. GSA selected three vendors to provide ETS solutions
under this contract: CWTSatoTravel, Hewlett Packard Enterprise Services, and Northrop
Grumman Mission Systems. In August 2013, DOJ announced that it plans to extend its ETS
contract with CWTSatoTravel until at least November 2014.
       In May 2012, the Office of Management and Budget directed all federal
agencies to reduce travel costs.4 JMD revised DOJ travel policies in May
2013 to require that traveling employees select the lowest-priced ticket
available that meets the requirements to accomplish their mission.5 To help
implement this policy, JMD reports that it is preparing a DOJ-wide bulletin to
illustrate how employees should use the online booking engine to compare
the cost of different types of airfares using the online booking engine.
Before the May 2013 policy revision, DOJ employees were encouraged, but
not required, to select the lowest airfare available.

     Since October 2010, DOJ employees booked an average of over
167,000 airline tickets per year at an estimated annual cost of over
$112 million.

OIG Review Approach

       Concerned about excessive travel contractor costs, the U.S. Senate
Committee on Appropriations issued a report in April 2012 directing
Inspectors General of agencies funded by the Departments of Commerce
and Justice, science, and related agencies appropriations bill for FY 2013,
which included the DOJ Office of the Inspector General (OIG), to examine
these costs.6 The Committee report specifically commended the Drug
Enforcement Administration (DEA) for “aggressively pursu[ing] savings in
this area.” To conduct this review, we discussed the evolution of DOJ travel
policies with officials at JMD Finance Staff, which establishes DOJ-wide travel
policies and ETS vendor requirements. In addition to JMD, we discussed and
reviewed travel policies and procedures with officials at the following seven
Department components: (1) DEA (2) Federal Bureau of Investigation
(FBI); (3) Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF);




       4
           Office of Management and Budget Memorandum 12-12 (May 11, 2012).
       5
          With regard to selecting flights that meet mission requirements, the policy permits
an employee to purchase a higher-priced City Pair fare when there is a “high degree of
certainty” that the requested trip will change or be cancelled or when the City Pair price is
less than the lowest non-contract airfare plus anticipated change or cancellation fees.
DOJ Financial Management Policy Memorandum 13-08 (May 15, 2013).
       6
         Senate Rep. No. 112-158 (April 19, 2012). The report required the review to be
completed within 180 days of what became the applicable legislation’s enactment, which
occurred on March 26, 2013.




                                              2

(4) U.S. Marshals Service (USMS); (5) Federal Bureau of Prisons (BOP);
(6) Executive Office for U.S. Attorneys (EOUSA); and (7) Criminal Division.7

     Unless otherwise specified, the scope of this review covers the period
from October 2012 through June 2013.

Overview of the DOJ Official Travel Process

     Exhibit 1 presents an overview of the process DOJ employees
generally follow to request and approve official travel.

              EXHIBIT 1: DOJ TRAVEL PROCESS OVERVIEW




Source: OIG

       In most cases, an employee books his or her travel arrangements and
prepares a travel authorization that details the dates of travel and the
purpose of the trip, while providing an estimate of the different types of
official travel costs that will be incurred (such as transportation, hotel, and
per diem). The authorization is then sent to a supervisor and a budget
official who respectively determine the reasonableness of estimated costs
and the availability of funds. A designated travel authorizing official then
      7
        Travel from these components constituted over 80 percent of the number of trips
booked by DOJ employees during the first 9 months of FY 2013.




                                           3

receives the authorization for final approval.8 Employees must have an
approved travel authorization prior to their travel.

      After returning from travel, the employee prepares a travel voucher to
be reimbursed for authorized expenses. Attached to the travel voucher
should be all receipts required by policy to support claimed costs. A travel
voucher approving official must approve the travel voucher before travel
costs can be paid.

Requirement to Select Lowest Airfare Available

       The U.S. General Services Administration (GSA) established the City
Pair Program to negotiate fully-refundable tickets for flights between specific
airports with designated carriers. These tickets are referred to as “City Pair”
or contract fares and are only available for official federal travel. As of this
review, there are over 5,000 specific City Pairs. Some City Pair routes also
offer a limited number of capacity-controlled fares at a price less than the
regular contract fare. Under the Federal Travel Regulation, federal travelers
must purchase City Pair fares when available, unless a publicly available,
non-contract airfare is less expensive than the City Pair fare for the same
flight.9

       In requiring that employees select the lowest-priced ticket that meets
mission requirements, the May 2013 DOJ travel policy also calls on travelers
to compare City Pair fares to available commercial fares. In making this
comparison, the policy encourages employees to consider the fees carriers
may charge to cancel or change non-City Pair fares, especially if there is a
risk that the trip may be cancelled or changed. The required online booking
engine, GetThere, allows each DOJ traveler to search and select flights by
date, time, and flight origin and destination. GetThere also provides
travelers with a list of all available flights that meet requested search criteria
and shows the various fares associated with each flight, including applicable
City Pair fares. Unlike City Pair fares, which are fixed for an entire fiscal
year, commercial fares can change frequently.

     Depending on the variables of a specific trip, City Pair fares may or
may not offer the lowest-priced ticket available on a specific flight. For

       8
          Some types of official travel, such as travel performed by new employees,
invitational travel, and relocation travel are centrally booked by DOJ travel arrangers and
not by individual employees.  
       9
           41 C.F.R. §301-10.105(a) and 41 C.F.R. §301-10.107(c) (2013).




                                              4

example, on August 2, 2013, we searched for a round-trip airfare departing
from Washington, D.C. (DCA) to Atlanta, Georgia (ATL) on a Monday
2 weeks in the future at 6:00 a.m. and returning at 5:20 p.m. the following
Wednesday. Under this scenario, the lowest non-stop, round-trip publicly
available airfare at the time of our search was $472. However, the City Pair
fare available for this same round-trip flight cost $306, or $166 less.
Applying the same criteria as the prior example, except that we changed the
destination to Miami, Florida (MIA), the lowest non-stop, round-trip publicly
available airfare was $292. However, the City Pair fare available for this
same round-trip flight cost $572, or $280 more. In these examples, under
the May 2013 policy, the employee traveling to Atlanta should have selected
the City Pair ticket, while the employee traveling to Miami should have
selected the publicly available fare instead of the City Pair fare (unless there
was a “high degree of certainty” that the trip would be changed or cancelled
or the non-contract airfare plus anticipated change or cancellation fees
would cause the ticket to cost more than the City Pair ticket).

Improving Online Booking Engine Configurations

       The GetThere online booking engine includes various attributes that
the Department and its components can modify, such as default search
settings, informational banners, and specific policy instructions. Depending
on how these attributes are configured, we found that some can encourage
or discourage DOJ travelers from selecting the lowest airfare available as
required by DOJ travel policies. We reviewed the user experience of booking
travel with GetThere and determined that certain component-controlled
configurations may also discourage DOJ travelers from selecting the lowest
airfare available or even from using the online booking engine instead of a
travel agent to make travel plans.

      For example, components can limit the types of airfares (such as
commercially available with change or cancellation fees, commercially
available without fees, and City Pair fares) GetThere provides as search
results by default. As of August 2013, the FBI, DEA, Criminal Division,
EOUSA, and JMD had configured GetThere so that employees booking travel
could see all available fares by default. In comparison, the USMS, ATF, and
BOP have set their respective default search options to show employees only
City Pair airfares or airfares that did not include change or cancellation fees,
even though, as discussed previously, some commercial airfares with
cancellation and change fees may be the lowest airfare available.

      Individual components can also configure informational banners and
the text that appear on both GetThere search results and ticket purchasing
screens. For example, as of August 2013, all DOJ components except for


                                       5

the DEA provided travelers one of the following two banners on GetThere’s
search results webpage.

      EXHIBIT 2: BOOKING ENGINE SEARCH RESULT BANNERS




                                      or




Source: JMD

      Stating that City Pair flights “should be chosen when available to
comply with regulations” or “should be selected where possible” discourages
travelers from following, and is arguably inconsistent with, DOJ travel policy
that requires travelers to procure non-contract airfares when such fares
would be the lowest-priced ticket available. In comparison, as of August
2013, the banner in Exhibit 3 appeared on all GetThere search results made
by DEA employees.

    EXHIBIT 3: DEA BOOKING ENGINE SEARCH RESULT BANNER

                                        




                                                                             

Source: JMD

      While the DEA search result banner in Exhibit 3 reinforces the DOJ
requirement to purchase the lowest airfare available, the banner still refers
to non-City Pair airfares as “Out of Policy.” We believe this is confusing
given that DOJ travel policy permits travelers to purchase these types of
fares when they are less costly.

       Whenever an employee selects from the search results a ticket that is
not a City Pair ticket, all DOJ components have also configured GetThere to
require that the employee justify why they selected a non-City Pair flight
before they can continue booking travel. As shown in Exhibit 4, while the
specific text cited by components varies, all components except for the DEA
refer to non-City Pair tickets as “out of policy” or “not in compliance.”


                                      6

                 EXHIBIT 4: SCREENSHOTS OF NON-CITY PAIR JUSTIFICATIONS 


  Component                                                                       Banner

JMD, ATF, BOP,          Pleau note Your ~ec CJ'Itf.ry. ~e 01 fOI,If'g.ency't ""¥elpoley YOliITWIt .eleet .. feuOII Pot -..::on1*onee wan poley Irolllllle drop
 EOUSA, and         ~   down", below., Otdef to ..... t:e rour fu.tV.tonl n..l'llonr'1tkln w.be Ir~~ to 'fO'¥ lJWO"l'I9 ofr.c.a
    USMS



                     <1>
    Crimina l
    Division
                           il'bMi ~ Yw
                                   ~ cr.er-.-y.OI;1bGe 01 p " fgel'ICY' lr.rdOOky ~Hd CI(I ':be ~ I$ted bdDw "you N.t MC~"

                           ~ 1It~ n«Oef 10 tntUe ~~.
                                                           tor ctI~9tS lOyourtJC,k!l ~se seIleIll'UJOt\ for tIOf'-CI""dtt '\II
                           Gcr._IlCOllnCl fife . you rAY f'Qa' ~                                                               tOIl. ~    "*'




                              -
                        <!>   P\eue lid. VWl boobd • .....,. It _ _ tlJ'OUI '9'OtY.1J:MI poley
       FBI                    To continue book1nvlhb ,eteNation. you nMI , . . .. IUIOn lor natKOI1'Ipc..:. WIIh '*Y .omlht''' ~ ks1




                                 You seltctld a DCWICcDIXt lIWt ..... )W IIntlat)' Please makt clII\II1lha you rod tht t.t rules b txt! tdil
                        ~         T,..._;nItSpOllSiie ... Ootl!fllnlg _         !he bcJ<~ ~ .....JbIt .. _          PIt... soled. "..." for
      DEA
                                           .eIectJ>g •••,'".., "" bCket 10m !he dIop down ht bolo<."'" to Inoiz. jW ,.,....,.".



Source. JMD




                                                                        7
       To assist DOJ travelers in selecting the lowest airfare available as
required by DOJ policy, GetThere should be configured to provide DOJ users
with all available airfare prices. Additionally, component-specified
instructions appearing on GetThere webpages should accurately reflect DOJ
travel policies that direct employees to select the lowest airfare available
that meets mission needs – even if that airfare is not a City Pair fare. When
those instructions state that non-City Pair fares are “out of policy” or “not in
compliance,” they discourage employees from complying with, and arguably
conflict with, DOJ travel policy. We therefore recommend that JMD work
with DOJ components to configure the online booking engine so that (1) the
search results will show all available airfares by default and (2) all
instructions, informational banners, and justification requirements comport
with updated DOJ travel policies.

Ensuring Employees Select Lowest Airfare Available

       Components use different methods by which employees generate
travel authorizations and reviewing officials document their approval. The
Department maintains a contract with CWT that allows components to use
an online application called E2 Solutions (E2) that uses GetThere bookings to
generate travel authorizations and vouchers and send these documents to
reviewing officials for approval.10 E2 further provides reviewing officials with
the lowest airfare available on the same flight or comparable flights
requested by the traveler. With this information, the authorizing official can
compare the fare requested in the authorization to the lowest airfare
available, and request that the employee select either the lower fare or
justify the more costly fare if the requested fare is higher. Of the eight
components we reviewed, the USMS, EOUSA, and JMD use E2 to process
travel authorizations and vouchers. Because of this, we believe that
reviewing officials in these components are adequately positioned to ensure
that employees comply with the DOJ travel policy lowest airfare available
requirement.

      However, the FBI, ATF, DEA, BOP, and Criminal Division each use its
own component-level travel authorization systems. Officials cited various
reasons for using their own travel authorization and vouchering systems
instead of E2. First, some component officials cited concerns over security
and the integrity of ongoing investigations as reasons necessitating the
handling of travel itineraries internally. Second, component officials stated
that employees are familiar with the authorization and vouchering systems

      10
           Components pay a $14 fee for each travel voucher processed through E2.




                                            8

in place and therefore prefer not to change them. Third, component officials
indicated that they want to avoid paying the $14 fee charged when E2
processes a travel voucher.

      We found that these component-level systems do not automatically
provide authorizing officials with the airfare information from GetThere
needed to confirm that employees selected the lowest airfare available, and
as a result, components not using E2 that wish to ensure employees select
the lowest-priced tickets must develop their own work-around procedures.

       Among the components we reviewed, the DEA has developed such a
procedure. In September 2011, the DEA began aggressively enforcing a
policy requiring that its employees purchase the lowest-priced tickets
available by making individual employees liable for unnecessary costs. To
enforce this policy, the DEA Office of Finance uses GetThere to validate each
airline booking made by DEA employees. The DEA stated that for each flight
booked by an employee it calculates the difference between the price of the
City Pair (or comparable fully refundable) fare to the lowest airfare available
chosen for that flight. The DEA stated it then adjusts each calculation to
account for cancellation or change fees that were actually incurred. The DEA
reported to us that there was a $6.5 million difference between the costs of
fully refundable City Pair (or equivalent) airfares and lowest airfares
available for all of its FY 2012 flights.11

       The revised DOJ travel policy still leaves it to the discretion of
individual reviewing officials as to whether to request evidence from
employees to show that they selected the lowest-priced ticket available at
the time of booking travel (such as a GetThere screenshot). In light of the
potential cost savings to the Department from the expanded use of lowest
airfare available, we believe that closer supervision of employee airfare
selections is warranted. We therefore recommend that JMD work with DOJ
components to ensure that officials approving travel have the information
necessary to ensure that employees comply with the DOJ travel policy and
select the lowest-priced ticket available that meets mission requirements.
Such information may include an employee certification or print screen that
demonstrates the employee selected the lowest airfare available at the time
of booking.

       11
           The DEA considers the difference in price between City Pair (or comparable fully
refundable) airfares and lowest airfares available as cost savings because it believes this
figure captures the full effect of the DEA-wide “change of behavior” as a result of enforcing
this policy. DEA officials told us that prior to the policy, employees largely purchased only
fully refundable airfares. Our review does not include an assessment of the $6.5 million in
reported savings.



                                              9

Maximizing the Percentage of Online Bookings

      As stated previously, DOJ employees may make travel arrangements
either directly with a vendor travel agent in person or by phone, or online. A
direct-agent booking costs $31.49 and online bookings using GetThere cost
$6.49 each, a difference of $25. In August 2010, the Assistant Attorney
General for Administration requested that all components develop an
“aggressive outreach strategy” to maximize the number of travel bookings
employees placed online instead of booking through a travel agent.

      JMD Finance Staff keeps track of and reports online booking statistics
throughout the fiscal year. As shown in Exhibit 5, these statistics show that
the percentage of online bookings occurring across the DOJ have generally
increased, rising from 44 percent for FY 2010 to 60 percent for the first nine
months of FY 2013.

         EXHIBIT 5: PERCENTAGE OF DOJ TRAVEL BOOKINGS 

                          PLACED ONLINE 

                    (October 2009 to June 2013) 





      Source: JMD Online Booking Statistics
      Note: FY 2013 booking rate based on data as of June 2013




                                         10 

       As of our review, online bookings could not be made for travel by
individuals without government travel cards (such as travel for new
employees, invitees, witnesses, and inmates). In addition, emergency travel
was booked with the assistance of an agent because the online booking
process generally requires 24 hours to finalize ticketing. JMD told us it
estimates that about 25 percent of all DOJ travel is for these types of trips
that cannot be booked online.12 We note JMD has begun developing a
method that would permit those making travel arrangements for travelers
without travel cards to use GetThere. We encourage JMD to continue this
effort to increase the amount of DOJ travel that can be booked online.

      In light of the estimated number of bookings that cannot currently be
placed online, JMD has established a DOJ-wide goal of a 75-percent online
booking rate. The highest online booking rate DOJ has achieved overall has
been 60 percent for the first 9 months of FY 2013, 15 percent less than the
established goal. JMD Finance Staff officials attributed at least some of the
shortfall to the fact that some employees prefer to make travel plans with an
agent and therefore remain reluctant to book online.

       Before our review, JMD had CWT update its agent reservation process
so that all DOJ employees calling for agent assistance receive a recorded
message informing them that booking with a travel agent costs $25 more
than booking online. JMD also reports that it is in the process of drafting a
bulletin to guide DOJ employees in how best to navigate GetThere to display
flight options and make travel plans. We believe this bulletin, once finalized,
will represent an important step necessary to enhance employee familiarity
with GetThere and thereby increase the number of bookings employees
choose to make online.

      Some components have taken aggressive actions designed to
encourage online booking, with the most notable examples being the DEA
and ATF. Both the DEA and ATF only reimburse the traveler for the lower
online booking fee of $6.49 unless the employee can specifically justify why
he or she needed travel agent assistance to book travel. We believe that if
other components followed this example and required that travelers who
incur a more expensive agent-assisted booking fee justify why they could
not book more cheaply online, DOJ as a whole would be better positioned to
meet its 75-percent goal for online bookings. Therefore, we recommend
that JMD update DOJ travel policy so that individual travelers are responsible
for paying unnecessary agent-assisted booking fees.


      12
           Our review did not include an assessment of this 25 percent figure.



                                             11 

Recommendations

    We recommend that JMD:

    1.	   Work with DOJ components to configure the online booking
          engine so that: (1) the search results will show all available
          airfares by default and (2) all instructions, informational
          banners, and justification requirements comport with updated
          DOJ travel policies.

    2.	   Work with DOJ components to ensure that officials approving
          travel have the information necessary to ensure that employees
          comply with the DOJ travel policy and select the lowest-priced
          ticket available that meets mission requirements.

    3.	   Update DOJ travel policy so that individual travelers are
          responsible for paying unnecessary agent-assisted booking fees.




                                   12 

                                                                                           APPENDIX I
             JUSTICE MANAGEMENT DIVISION’S
              RESPONSE TO THE DRAFT REPORT



 ~
                                                       U.S. Department of Justice

 ~


  SEP 1 9 2013


MEMORANDUM FOR RAYMOND J. BEAUDET
               ASSIST ANT INSPECTOR GENERAL FOR AUDIT

FROM:                  Lee J. Lofthus
                       Assistant Attorney e
                                           ~a
                                              ~
                         for Administratio

SUBJECT,               Justice Management Division Response to the Office of the Inspector
                       General Draft Report: Review of Department of Justice Airfares and
                       Booking Fees October 20 12 Through June 2013~

This responds to Office of the lnspector General (OIG) draft report: Rl;:vicw of Department of
Justice Airfares and Booking Fees October 20 12 Through June 20 13. We are pleased that many
oftbe efforts of the Deparunent's components to reduce travel costs were recognized. Further, I
note that as part of the President's "Campaign to Cut Waste," the Department has exceeded its
savings targets for :WlO·2013 . The Department's components have also made significant efforts
and recognized significant savings in booking fees and by using the lowest cost airfares that met
the Department' s mission, both of which have been long standing cost savings initiatives for the
Department.

The Justice Management Division (JMD) has reviewed the draft OIG report and provides the
following responses to the OIG's three recommendations to the JMD.

Recommendation 1: Work with DOJ components to configure the onlin e booking engine so
thal: ( I) the search results will show all available airfares by default arid (2) all instructions~
informational banners, andjustificalion requirements comport with updated DOJ travel policies.

Response: The JMD concurs with the recommendation. JMD will: (I) work with the U.S.
Marsha ls Service; Alcohol, Tobacco, Fireanns and Explosives (A TF); Bureau of Prisons;
Federal Prison IndUlstries; and Office of Justice Programs to implement the default configuration
to show all available airfares in the online booking engine, and (2) work with the Department's
Travel Policy Working Group and travel coordinators to development minimum standards for the
instructions and information banners to ensure clear consistent guidance to the traveler that are
consistent with the Department's travel policies.

JMD will also work with the General Services Admini stration (GSA) to ensure the Federal
Travel Regulation (FTR), Chapter 30 1-10.1 07(c) and the recent GSA Bulletin FTR 13-07




                                                13 

Memorandum for the Assistant Inspector General for Audit                             Page 2
Subject: JMD Response to OIG Draft Report: Review of Department of Justice Airfares and
Booking Fees October 2012 Through June 2013

" Emphasizing FTR Opportunities for Achieving Reduced Travel Costs through Use of City Pair
Program (CPP) Contract and Non-Contract Airfares" is consistent with implementatio n of this
recommendation.

Recommendation 2: Work with DO] components to ensure that officials approving trave l have
the information necessary to ensure that employees comply with the DOJ travel policy and select
the lowest-priced ticket available that meets mission requirements.

Response: The JMD concurs with the recommendation. JMD will work with the components
currently not using the E2 So lution (E2) to (1) determine a reasonable and efficient method to
provide the official approving travel the information necessary to ensure the lowest-priced ticket
avai lable that meets mission requirements is selected and (2) continue future implementations of
E2.

Recommendation 3: Update DOJ travel policy so that individual travelers are responsible for
paying unnecessary agent-assisted booking fees.

Response: The JMD concurs with the recommendation. JMD wi ll work with the Department's
Travel Policy Working Group and Travel Coordinators to review the Drug Enforcement
Administration, ATF, and Executive Office for United States Attorneys processes to develop a
reasonable and cost effective approach for other Components to implement the recommendation.

If you have any question please contact me on (202)514-3 101 or have you staff contact Chris
Alvarez, Deputy Director, Finance Staff, JMD on (202)6 16-5234.




                                               14 

                                                                                       APPENDIX II
      DRUG ENFORCEMENT ADMINISTRATION’S
         RESPONSE TO THE DRAFT REPORT

                                                   U. S. Department of Justice
                                                   Drug Enforcement Adm ini strati on




www.dea.gov                                        'Washington. D.C. 20537



                                                    SEP 1 9 2013
MEMORANDUM

TO:            Raymond J. Beaudet
               Assistant Inspector General for Aud.il
               Offiee of the Inspccto General      ~

FROM:          Kevin M. Foley
               DepulyChief lns       or
                                                (c,Z
                                                  C-
               Office of Inspections

SUBJECT:       DEA' s Response 10 the O[G·s Draft. Repon: Ne l·iell' o!DeptI/,fJ/lem ~r.hl.Wice
               Ail:fim!s alld Bookillg Felts Oefobel' 2012 ,"mug" Jllne 20/3

   The Drug Enforcement Administration (DEA) has reviewed the Depanment o f Justice
(DOJ ), Office of the Inspector General"s (OIG) Draft Audit Repon . entitled: Neview of
Depal'lfllenl ofJII.~lice Airfores (llId IJooking Fees October lOl21hrullgh Jllne 1013. DEA
aCknowledges OIG's efTons in conducting me rcvioew to evaluate 001 wide travel policies and
procedures 10 reduce excessive spending.

    T he DIG report contains t.hrec rccomm!!ndatior.ls fo r the Justice Management Division's
(J MD) action. Although the DEA appreci:ltes the acknowledgement by the DIG o f the advances
DEA has made in achievi ng, savings through its Lowest Availabl e Airfare pol icy, DEA would
like to provide additional infornlation that may help DOJ identify excessive expenditures and
areas of savings.

     in the Senate Confe rence Rcpon accompanying the FY 2012 Appropriations Bi ll. the Senate
expressed its concern that Federallravel contractors might be overcharging Federal agencies for
their services. As stated in lhe Conference Rcpon, ··These contrnctors charge Federal agencies
hundreds of dollars 1\10re per tick!!!, along with a servicc fcc. than can be purd13scd on-line or
dilt"ctly through the air carrier:· DEA believes thal an examination of the co!'>! structure orille
travel contractors themsel ves cou ld provc usenll in identi fying areas where additional savi ngs
could be achicved,

    DEA bricft."(] the O[G review team on the excessive manual eflons required by govern ment
staff to ensure compliance wi lh DEA policy and identified several improvements that have been
requestcd 10 JMD. These include Ihe ability to book depcndcntlravel On the travcl website aJld a
systcm edit d Ull would automatically notify the DE A travel oflice whenever a DEA employee



                                               15 

Raymond 1. Beaudet, Assistant lnspcetof General fOf Audit                                  Page 2

books a night that is not the lowest available tare for the fl ight(s) they have chosen. 1l1ese
improvements, when implemented, would help DEA and other DOJ components achieve
additional travel savings and COffcct system deficiencies that currently require extensive work­
afound efforts by the components.

    If you have any questions or concerns regarding DEA's response to !.he OIG Audit Report.
please contact the Audit Liaison Team al (202) 307-8200.




                                              16 

                                                                                  APPENDIX III
BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND
EXPLOVIVES’ RESPONSE TO THE DRAFT REPORT

                                                  U.S. Department of Justice

                                                  Bureau of Alcohol. Tobacco.
                                                  Fireanns and Explosives

                                                  Office of the Director

                              SEP 1 8 1013        Washla&IOn, DC 20126




MEMORANDUM TO:                Inspector General

               llIRU,

                FROM:
                                                  "}6&.:40. Firearms and Explosives (ATF)
           SUBJECT,          ATF's Response t the     ce of the lnspector General's (OIG)
                             Review of the Department of Justice's (D01) Airfare and Booking
                             Fees October 2012 Through June 20 13


This memorandum is to provide the Bureau of Alcohol, Tobacco, Fireanns and Explosives
response to the Officc of Inspector General's recommendations regarding the review of the
Department of Justice Airfares and Booking Fees Order 2620.7.

Recommendalion # 1

Work with DOJ components to configure the online booking engine so that: ( 1) the seareh results
will show all availablc airfares by default and (2) all instructions. infonnational banners, and
justification n:quirements comport with updated DOJ tmvel policies.

ATF Response

A TF agrees w ith this recommendation. ATF will work with OOJ and Electronic Travel Services
(ETS) to ensure that (I) online booking agent will show all available airfares. and (2) devise
infonnational banners which will appear to remind employee to choose the lowest available
airfare that meets mission requirements. This action will be completed by April 20 14.

Recommendation #2

Work with DOJ components to ensure that officials approving travel have the infonnation
necessary to ensure that employees comply with the DOJ travel policy and select the lowest­
priced ticket available that meets mis.c;ion requirements.




                                             17 

                                               -2-

Inspector General


ATF Response

A TF agrees w ith this recommendation. ATF will send out a broadcast to all ATF supervisors and
pcrsoIUlel notifying them that when traveling by air they are to choose the lowest·priccd ticket
avaiJablc that meets mission requirements. In addition, notifying supervisors and or
authorization officials approving travel to validate that employee chose the lowest priced fair
based on mission requirements. This action will be completed by December 2013.

Recommendation #3

Update DO] travel policy so that individual travelers are responsible for paying wmecessary
agent-assisted booking fees.

A TF Response

ATF agrees with this recommendation. ATF currently has a policy in place which mandates
online booking by employees. A justification with supervisory approval is required if policy is
not followed.

Should you have any questions regarding this memo, please feel free to contact Steve Kolcio at
202-648-7707.




                                              18 

                                                              APPENDIX IV
              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this report to the eight Department of
Justice components included in our review. Of these, three components
provided responses to the draft report. JMD’s response is incorporated in
Appendix I. The DEA’s response is incorporated in Appendix II. ATF’s
response is incorporated in Appendix III. The following provides the OIG’s
analysis of these responses and a summary of actions necessary to close the
report.

Analysis of Draft Report Responses

      In response to our report, JMD concurred with our recommendations
and discussed the actions it will implement with other DOJ components. The
ATF’s response concurred with our recommendations to JMD. The DEA’s
response acknowledged the OIG’s efforts to identify excessive spending by
performing this review and made three additional observations intended to
help DOJ identify excessive expenditures and areas of savings. In this
appendix, we first reply to the DEA’s three observations, and then discuss
JMD’s specific responses to our recommendations and the actions necessary
to close those recommendations.

       First, the DEA stated that it believes that an examination of the cost
structure of travel contractors could prove useful in identifying additional
cost savings. The DEA cites language from Senate Report No. 112-158
noting that travel contractors charge federal agencies hundreds of dollars
more per ticket, as well as a service fee, than would be charged if the same
ticket were purchased online or directly from the carrier. While we
appreciate this suggestion by DEA and also took note of the language in the
Senate Report on this issue, our review did not assess the cost structure of
travel contractors because those issues involve agreements entered into by
the U.S. General Services Administration (GSA). The Federal Travel
Regulation requires that each federal agency deploy e-Travel Services (ETS)
and that federal agencies acquire ETS by issuing task orders under one of




                                     19 

three master contracts negotiated by GSA.13 A review of DOJ travel
contractor fees structure of the ETS task order would require a review of the
larger GSA ETS master contract that sets the fees, which is beyond the
jurisdiction of the DOJ OIG. Therefore, we focused our review on specific
ways DOJ employees could reduce travel contractor costs incurred under the
GSA ETS master contract, and encourage the DOJ to identify and pursue
other opportunities to save money through the purchase of lowest airfares
available, the use of online booking, and the reduction of travel contractor
booking costs.

       Second, the DEA stated that the online booking engine should be
adjusted so that it automatically notifies the DEA whenever an employee
does not purchase the lowest available airfare for the chosen flight. Without
such a notification, the DEA stated, its staff must make “excessive manual
efforts” using an “extensive work-around” to ensure that its employees
comply with its lowest airfare available policy. Our report notes that the DOJ
ETS tool, E2 Solutions, does provide lowest airfare available information to
travel authorizers. Our report also notes that some DOJ components
(including the DEA) do not use E2 Solutions, and thus travel-approving
officials in those components do not know whether the employee requesting
travel actually selected the lowest airfare available. We therefore included a
recommendation that JMD work with each component to develop a method
by which officials approving travel receive this information.

       Third, the DEA stated that the booking engine prevents employees
from booking travel online if they are traveling with dependents, such as
when travel is related to a permanent change of station. As a result, those
traveling with dependents must book flights with travel agent assistance and
incur additional costs. Our report notes that there are various categories of
official travel, such as invitational and emergency travel, that cannot be
booked online. During our review, we found that JMD had begun working
with CWT to address this limitation and expand the categories of official
travel that can be booked online, and our report explicitly encourages JMD to
continue this effort.




      13
          41 C.F.R. § 301-73.101 (2013). Employees must book official travel using their
agency’s approved ETS unless they have a specific exemption from their agency head or
designee. 41 C.F.R. § 301–50.3 (2013). An employee who purchases airline tickets outside
their agency’s ETS without such an exemption violates the Federal Travel Regulation.
41 C.F.R. § 301-73.102 (2013).



                                          20 

Summary of Actions Necessary to Close the Report

  1. Resolved. JMD concurred with our recommendation to work with DOJ
     components to configure the online booking engine so that: (1) the
     search results will show all available airfares by default and (2) all
     instructions, informational banners, and justification requirements
     comport with updated DOJ travel policies. In addressing these
     configuration changes, JMD said it will work with members of the DOJ
     Travel Policy Working Group and travel coordinators to develop
     minimum standards for booking engine instructions and informational
     banners, and with GSA to ensure that relevant travel regulations are
     consistent with implementation of this recommendation.

     This recommendation can be closed when we receive evidence that
     DOJ employees using the online booking engine are provided: (1) all
     available airfares by default and (2) instructions, informational
     banners, and justification requirements that comport with the
     minimum standards that JMD has agreed to develop in cooperation
     with the DOJ Travel Policy Working Group, travel coordinators, and as
     appropriate, GSA.

  2. Resolved. JMD concurred with our recommendation to work with DOJ
     components to ensure that officials approving travel have the
     information necessary to ensure that employees comply with the DOJ
     travel policy and select the lowest-priced ticket available that meets
     mission requirements. JMD stated in its response that it will work with
     components not using E2 Solutions (which provides such information)
     to determine a reasonable and efficient method to provide relevant
     lowest-priced ticket information to officials approving travel. JMD also
     reports it plans to continue future implementations of E2 Solutions
     across DOJ.

     This recommendation can be closed when we receive evidence that
     components not using E2 Solutions have developed a method of
     providing relevant lowest-priced ticket information to officials
     approving travel.




                                    21 

3. Resolved. JMD concurred with our recommendation to update DOJ
   travel policy so that individual travelers are responsible for paying
   unnecessary agent-assisted booking fees. JMD stated in its response
   that it will work with the DOJ Travel Policy Working Group and travel
   coordinators to develop a reasonable and cost-effective approach for
   components to implement this recommendation.

  This recommendation can be closed when we receive evidence that the
  DOJ travel policy has been updated so that individual travelers are
  responsible for paying unnecessary agent-assisted booking fees.




                                  22 

